  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA Should Improve
Timeliness for Resolving
Audits Under Appeal
Report No. 11-P-0687

September 21, 2011
Report Contributors:                                Richard Eyermann
                                                    Mike Davis
                                                    Marcia Hirt-Reigeluth
                                                    Yeon Kim
                                                    Ashley Sellers-Hansen




Abbreviations

AA             Assistant Administrator
AFC            Audit followup coordinator
CEDI           Caribbean Environment & Development Institute
CFR            Code of Federal Regulations
EPA            U.S. Environmental Protection Agency
FDL            Final Determination Letter
MATS           Management Audit Tracking System
OARM           Office of Administration and Resources Management
OCFO           Office of the Chief Financial Officer
OGC            Office of General Counsel
OGD            Office of Grants and Debarment
OIG            Office of Inspector General
ORC            Office of Regional Counsel
RA             Regional Administrator




Hotline
To report fraud, waste, or abuse, contact us through one of the following methods:

e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                              11-P-0687
                                                                                                   September 21, 2011
                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review              EPA Should Improve Timeliness for Resolving
We initiated this review to         Audits Under Appeal
evaluate how efficiently,
effectively, and timely the         What We Found
U.S. Environmental Protection
Agency (EPA) resolves audits        EPA’s efforts to resolve over $55 million for audits under appeal in Regions 2
under appeal. Our objectives        and 5 are not efficient, effective, or timely. During our audit, we found that:
were to determine whether all of
the audits under appeal are            	 Inadequate communications between audit followup coordinators and
included in the Management                EPA personnel responsible for resolving audits under appeal have
Audit Tracking System (MATS),             resulted in inaccurate information in MATS.
whether the applicable policies
and procedures are complete and
                                       	 Policies and procedures for addressing audits under appeal are not
                                          complete and relevant; many of the policies for resolving audits under
relevant, and how efficiently and
                                          appeal are inconsistent.
effectively the audits under
appeal are being resolved.             	 EPA does not adhere to its policies for timely resolution of audits under
                                          appeal; as of September 2010, 17 of 30 audits under appeal had been in
Background                                resolution for 10 to 21 years.

For purposes of this report, we     EPA Manual 2750 and the Code of Federal Regulations (CFR), through
use the term “audits under          40 CFR 31.70, require that appeals be fully and fairly considered and resolved
appeal” to describe situations in   in the earliest practicable timeframe, at the lowest level possible. Because
which a grantee disagrees with a    appeals are not being resolved timely, at least $17.3 million is not available to
Final Determination Letter          the government. These funds could potentially be used to protect public health
issued by the Agency sustaining     and the environment.
some or all of the questioned
costs identified in an audit of a
                                    What We Recommend
completed grant. The grantee
appeals the Final Determination     We recommend that the Office of the Chief Financial Officer ensure that the
Letter with the Regional            in-process revisions to EPA Manual 2750 include a communication strategy to
Administrator or Assistant          ensure that EPA records current data on audits under appeal in MATS,
Administrator of the issuing        establishes a finite number of reconsideration requests, and provides for
EPA office.                         consistency among policies for resolving audits under appeal. We also
                                    recommend that the Assistant Administrator for Administration and Resources
                                    Management reference revisions to EPA Manual 2750 in the Office of
                                    Administration and Resources Management’s in-process revisions to the
For further information,            Agency’s Assistance Administration Manual. The Agency generally agreed
contact our Office of
Congressional, Public Affairs and
                                    with the report’s findings and overall recommendation for EPA to provide
Management at (202) 566-2391.       greater structure and consistency to the audit resolution process, but the Agency
                                    proposed alternatives to the recommendations. Currently, the Office of
The full report is at:              Inspector General considers the recommendations to be unresolved with
www.epa.gov/oig/reports/2011/       resolution efforts in progress.
20110921-11-P-0687.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                             THE INSPECTOR GENERAL




                                         September 21, 2011

MEMORANDUM

SUBJECT:	 EPA Should Improve Timeliness for Resolving Audits Under Appeal
          Report No. 11-P-0687


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Barbara J. Bennett
               Chief Financial Officer

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $216,357.

Action Required

The Agency did not agree with recommendations 1 and 2. These recommendations are
considered unresolved with resolution efforts in progress. Therefore, in accordance with EPA
Manual 2750 regarding unresolved recommendations, you are required to provide a written
response to recommendations 1 and 2, including a proposed corrective action plan with planned
completion dates, within 90 calendar days of the report date. Your response will be posted on the
OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no objections
to the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Richard
Eyermann, Director, Efficiency Audits, at (202) 566-0565 or eyermann.richard@epa.gov.
EPA Should Improve Timeliness for                                                                                                  11-P-0687
Resolving Audits Under Appeal


                                      Table of Contents 

   Purpose          ....................................................................................................................    1


   Background .................................................................................................................             1


   Scope and Methodology.............................................................................................                       3


   Results of Review .......................................................................................................                4


           Not All Audits Under Appeal Are Correctly Recorded in MATS ...........................                                           5

           Policies and Procedures for Resolving Audits Under Appeal Are 

                 Inconsistent ................................................................................................              5     

           EPA Does Not Achieve Timely Resolution of Audit Appeals................................                                          6


   Conclusion...................................................................................................................            8


   Recommendations ......................................................................................................                   8


   Agency Comments and OIG Evaluation ...................................................................                                   9


   Status of Recommendations and Potential Monetary Benefits .............................                                                 10




Appendices
   A       List of Sampled Audits Under Appeal ..............................................................                              11 


   B       Timeline of Resolution Process for Sampled Audits......................................                                         12 


   C       Agency Response and OIG Evaluation ............................................................                                 15 


   D       Distribution .........................................................................................................          21 

Purpose

            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), initiated this review to evaluate how efficiently and timely EPA resolves
            audits under appeal. As of September 17, 2010, the Management Audit Tracking
            System (MATS) listed 30 grant audits totaling $61,495,139 in questioned costs
            that were under appeal. Our objectives were to determine:

                      Which audits under appeal are not included in MATS?
                      Are the policies and procedures for appeal of Agency decisions
                       complete and relevant?
                      How efficiently are audits under appeal being resolved?

Background
            For purposes of this report, we use the term “audits under appeal” to describe
            situations in which a grantee disagrees with a Final Determination Letter (FDL)
            issued by the Agency sustaining some or all of the questioned costs identified in
            an audit of a completed grant. The grantee appeals the FDL with the Regional
            Administrator (RA) or Assistant Administrator (AA) of the issuing EPA office.

            Management Audit Tracking System

            In accordance with EPA Manual 2750, December 3, 1998, EPA tracks
            information on audits under appeal in MATS. EPA uses MATS to support the
            Audit Management Process by which: (1) EPA officials respond to OIG final
            reports, (2) OIG and EPA officials resolve findings and recommendations
            contained in reports, and (3) EPA officials implement followup corrective actions.

            Audit followup coordinators (AFCs) are responsible for entering accurate,
            complete, and verifiable information into MATS, and maintaining official files
            containing records of audit reports, management decisions, and certifications of
            completed corrective actions. Ensuring the Quality of Data in MATS: OCFO
            Quality Assurance Plan, September 30, 2008, details the training requirements for
            AFCs and the methods used for data quality, such as data entry and review
            checklists, and periodic spot checks of the documentation contained in the AFCs’
            official files compared to the information provided in MATS.

            Appeal Resolution Process

            Until 2008, EPA resolved audits under appeal in accordance with the procedures
            cited in EPA’s Closeout Policy for Grants and Cooperative Agreements,
            August 27, 1992. This policy included the closeout requirements basic to all
            grants and cooperative agreements, the roles and responsibilities of EPA and its
            recipients, and the specific closeout requirements unique to Superfund,
            Construction Grants, and the State Revolving Fund Programs. The policy also


11-P-0687                                                                                       1
                     included the audit resolution and disputes requirements and criteria. The 1992
                     closeout policy was superseded when EPA issued Order 5700.6A2, Policy on
                     Compliance, Review and Monitoring, effective for closeout procedures on
                     January 1, 2008. The flowchart below is the current process for closing out and
                     resolving an appeal.

      Figure 1: The resolution process for audits under appeal

                                                                                W ith in 3 0 c a le n d a r
                                                                                   d a y s , d is p u ta n t      D is p u ta n t's
                       F in a l d e c is io n                                                                                                    D is p u ta n t is
                                                     Does                       file s a p e titio n w ith       counsel m ay
                      le tte r (F D L ) b y                            No                                                                       e n title d to a n
                                                  g ra n te e /                 A A re s p o n s ib le fo r           s u b m it
                           d is p u te s                                                                                                            in fo rm a l
                                                  d is p u ta n t                    th e p ro g ra m .          d o c u m e n ta ry
                      d e c is io n o ffic ia l                                                                                                  c o n fe re n c e
                                                    a g re e ?                                                    e v id e n c e &
                        (D D O ) a t H Q                                                                                                           w ith E P A
                                                                                                                       b rie fs
            HQ                                                                                                                                      o ffic ia ls
                                                           Yes

                                                      End
                                                                                                                                                A A 's d e c is io n
                                                                                                                                              c o n s titu te s fin a l
                                                                                                                                                 E P A a c tio n




                                                                                                                D is p u ta n t's
                                                                                                               counsel m ay                     D is p u ta n t
                                                                                     W ith in 3 0
                                                     Does                                                           s u b m it                e n title d to a n
                                                                       No       c a le n d a r d a y s ,
                         FDL by DDO at            g ra n te e /                                                d o c u m e n ta ry                in fo rm a l
                                                                               d is p u ta n t file s a
                             re g io n            d is p u ta n t                                               e v id e n c e &               c o n fe re n c e
                                                                               p e titio n w ith R A
                                                   a g re e ?                                                        b rie fs                    w ith E P A
                                                                                                                                                   o ffic ia ls

                                                           Yes

                                                      End
                                                                                                                                                  R A is s u e s
                                                                                                                                                  d e c is io n




                                                                R A 's d e c is io n is fin a l.                                        Yes           Does
                                                                                                                                                   d is p u ta n t
                                                                                                                                                    a g re e ?


                                                                                                                                                            No

                                                                                                                                                   W ith in 3 0
        R e g io n
                                                                                                                                               c a le n d a r d a y s ,
                                                                                                                                               d is p u ta n t m a y
                                                                                                                                                file a p e titio n
                                                                                                                                                    fo r A A 's
                                                                                                                                                d is c re tio n a ry
                                                                                                                                                     re v ie w




                                                                R A 's d e c is io n re m a in s fin a l.                               No          W ill A A
                                                                                                                                                    re v ie w ?




                                                                                                                                                            Yes



                                                                                                                                                     D is p u ta n t
                                                                                 A A 's d e c is io n              D is p u ta n t is
                                                                                                                                                  s u b m its b rie fs
                                                                                 b e c o m e s th e               e n title d to a n
                                                                                                                                                   in s u p p o rt o f
                                                                                    fin a l E P A                     in fo rm a l
                                                                                                                                                       p e titio n
                                                                                       a c tio n                   c o n fe re n c e




      Source: OIG interpretation of 40 Code of Federal Regulations 31.70, Disputes.

      Note: DDO is the disputes decision official.



11-P-0687                                                                                                                                                                 2
Scope and Methodology
            We conducted this performance audit from September 2010 through July 2011 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            As of September 2010, EPA and its regions had 30 audits under appeal with total
            questioned costs of $61,495,139. We selected Regions 2 and 5 for review because
            20 appeals, totaling $55,546,879, were associated with these two regions. Regions
            2 and 5 had 66 percent of the appeals with over 90 percent of the total questioned
            costs. Our sample of 10 appeals consisted of 5 appeals from Region 2 and 5 from
            Region 5, totaling $17,301,131 in questioned costs. Appendix A lists the selected
            audits under appeal.

            We conducted interviews and reviewed documentation to understand the tracking
            process for audits under appeal, the steps in the resolution process, and the
            applicable EPA or federal policies and procedures. We visited Region 2,
            Region 5, and EPA offices in New York, New York; Chicago, Illinois; and
            Washington, DC. We interviewed the AFCs and the staffs of the Offices of
            Regional Counsel (ORC), the Grants Management Divisions, and program offices
            of Regions 2 and 5 to determine the process for resolving audits under appeal and
            the guidance they followed. In addition, we met with management from the Office
            of General Counsel (OGC) and Office of Grants and Debarment (OGD) at EPA
            headquarters to determine their roles in the appeal resolution process. During the
            interviews, we learned that OGC and OGD are currently in the process of revising
            the Agency’s Assistance Administration Manual. Subsequently, we learned that
            the Office of the Chief Financial Officer’s (OCFO’s) Office of Financial
            Management was convening a workgroup comprising representatives from Office
            of Administration and Resource Management (OARM), OGC, OIG, the regions,
            and program offices to revise EPA Manual 2750.

            We reviewed the ORC and AFC files for Regions 2 and 5, including audit reports,
            FDLs, grantee appeal letters and petitions, RA Dispute Decisions, and
            miscellaneous correspondence. We also reviewed information on the audits under
            appeal in MATS.

            We assessed the internal controls relevant to our objectives by reviewing the
            applicable criteria, and during our interviews, we verified regional and
            headquarters personnel compliance with the criteria. The applicable criteria
            include:




11-P-0687                                                                                      3
                           EPA Manual 2750, EPA’s Audit Management Process
                           The Code of Federal Regulations (CFR), 40 CFR 31.70, Disputes
                           Office of Management and Budget Cost Principles, as promulgated in
                            the CFR
                          Regional policies and procedures for reviewing, resolving, and closing
                            audits under appeal
                          EPA’s Closeout Policy for Grants and Cooperative Agreements
                          EPA Order 5700.6A2, Policy on Compliance, Review and Monitoring
                          EPA Region 2 Procedures for Resolution of Assistance Disputes under
                            40 CFR Part 301 Subpart L and 40 CFR 35.3030
                         	 The Memorandum of Understanding Between the Office of Regional
                            Counsel and the Region 5 Offices/Divisions for Grants Law
                            Management
                         	 MATS user’s manual

                 Based on our reviews of regional policies and the documents provided by regional
                 personnel, as well as our interviews with regional personnel, we compared the
                 timelines set forth in the regional guidance to the actual timelines of the audits
                 under appeal.

Results of Review
                 EPA’s efforts to resolve over $55 million for Regions 2 and 5 audits under appeal
                 are neither efficient nor timely. During our audit, we found that:

                         	    Inadequate communications between AFCs and EPA personnel
                               responsible for resolving audits under appeal have resulted in
                               inaccurate information in MATS.

                         	    Policies and procedures for addressing audits under appeal are not
                               complete and relevant; many of the policies for resolving audits under
                               appeal are inconsistent.

                         	    EPA does not follow its policies for timely resolution for audits under
                               appeal; as of September 2010, 17 of 30 audits under appeal had been
                               in resolution for 10 to 21 years.

                 Both EPA Manual 2750 and 40 CFR 31.70 require that appeals be fully and fairly
                 considered and resolved in the earliest practicable timeframe, at the lowest level
                 possible. Because appeals are not being resolved timely, at least $17.3 million that
                 could be used to protect public health and the environment is not available to the
                 government.


1
 Pursuant to 40 CFR 30.63, dispute procedures outlined in 40 CFR 31.70 also apply to grants issued under 40 CFR
Part 30.


11-P-0687                                                                                                         4
            Not All Audits Under Appeal Are Correctly Recorded in MATS

            EPA Manual 2750 requires that OCFO administer MATS to track information on
            Agency-wide audit corrective actions, audits under appeal, causes of missed
            deadlines, and questioned costs. OCFO relies on data contained in MATS to
            prepare end-of-year audit followup reports, which EPA includes in its annual
            Performance and Accountability Report to Congress and the President. AFCs are
            responsible for maintaining and operating MATS, tracking responses to audit
            reports from issuance through completion of the corrective action, and monitoring
            the status of outstanding responses and appeals. Program and regional office
            AFCs must enter timely, complete, and verifiable information in MATS to ensure
            the accuracy of EPA’s reports to Congress.

            MATS did not include or had outdated information for five audits under appeal,
            all within Region 2. MATS did not include Nassau County, New York, Audit
            Report No. 1991-100228-320, with total questioned costs of $1,664,687, because
            the audit was incorrectly closed in 1994. In addition, on July 20, 2007, Nassau
            County withdrew its appeals of four other audits, with total questioned costs of
            $1,175,691, but Region 2 did not record the withdrawal status in MATS. Of the
            four withdrawn audits under appeal, three are now closed in MATS and one is in
            collection. Thus, a net understatement of $966,059 in questioned costs in
            Region 2’s audits under appeal has been included in Agency end-of-year audit
            followup reports to Congress from 2007 to the present, and an understatement of
            $1,664,687 existed from 1994 to 2007.

            We found that the ORCs in Regions 2 and 5 generally were unaware of MATS, of
            the Agency’s reliance on the data in MATS, and of the importance of keeping the
            AFCs informed of the status of the ongoing appeals. As a result, inadequate
            communication existed among the parties involved in resolving audits under
            appeal, particularly regarding the status of the appeals and the importance of
            accurately reflecting the data in MATS. In Region 2, lack of quarterly status
            reports to the AFC on all open audits under appeal rendered the AFC unaware that
            the open audit under appeal, as well as the four withdrawn appeals, were not listed
            in MATS.

            Policies and Procedures for Resolving Audits Under Appeal Are
            Inconsistent

            Policies and procedures for addressing audits under appeal are not complete and
            relevant, and policies in headquarters and regions are inconsistent. Headquarters
            policies and procedures lack timelines for resolving the audits under appeal as
            well as milestones for monitoring the resolution status of the appealed audits.
            Headquarters policies and procedures are general and only require that appeals be
            fully and fairly considered and resolved in the earliest practicable timeframe, at
            the lowest level possible. Specifically, EPA Manual 2750, 40 CFR 31.70, and
            EPA’s Closeout Policy for Grants and Cooperative Agreements only require that



11-P-0687                                                                                      5
                    appeals be resolved in the earliest practicable timeframe. As a result, delays
                    occurred when the ORCs failed to follow the regional policies and procedures and
                    only complied with those of the Agency.

                    For example, in the Amherst, New York, and Nassau County, New York, audits
                    under appeal, repeated Requests for Reconsideration of the RA or AA’s Dispute
                    Decisions prevented settlement of the appeals. Of the three Nassau County and
                    one Amherst appeals we reviewed, there were 2, 3, 4, and 5 reconsideration or
                    petitions for reconsideration requests filed. These repeated requests were
                    permitted per the Closeout Policy for Grants and Cooperative Agreements, which
                    states, “The recipient may request reconsideration of any decision of the RA or
                    AA.”

                    Further, although the 1992 closeout policy was superseded when EPA issued
                    Order 5700.6A2, Policy on Compliance, Review and Monitoring, effective for
                    closeout procedures on January 1, 2008, the closeout policy remains posted on the
                    “Closeout Policies Topics” webpage,2 and Order 5700.6A2 is not posted.

                    Although the regions have timelines and milestones set forth in their internal
                    policies and procedures, they are inconsistent and are not followed. For example,
                    Regions 2 and 5 internal policies and procedures have established timelines and
                    milestones of 120 and 180 days, respectively, for the resolution of an audit under
                    appeal. Some of the regional policies and procedures are also outdated, having
                    been written in the 1980s. For example, the Region 5 policies and procedures
                    emphasize the government financial law matters arising under the Construction
                    Grants Program, which no longer exists.

                    EPA Does Not Achieve Timely Resolution of Audit Appeals

                    EPA’s Closeout Policy for Grants and Cooperative Agreements and Order
                    5700.6A2, Policy on Compliance, Review and Monitoring, establish the policies
                    and procedures for closing out the completed grants in our sample. Region 2’s
                    Procedures for Resolution of Assistance Disputes under 40 CFR Part 30 Subpart
                    L and 40 CFR 35.3030 set an internal goal to resolve each appeal within 120 days
                    of receipt of the appeal if no informal conference is held or, if a conference is
                    held, within 120 days after the date of the conference. In addition, Region 5’s
                    Memorandum of Understanding Between the Office of Regional Counsel and the
                    Region 5 Offices/Divisions For Grants Law Management set a goal of 180 days
                    within which to resolve an appeal.

                    Seventeen of 30 audits under appeal as of September 2010 had been in the
                    resolution process for 10 to 21 years. We sampled 10 of the 20 audits under
                    appeal in Regions 2 and 5. For these audits under appeal, the grantees filed their
                    appeals from April 1990 to October 2008 in Region 2, and from November 2000
                    to March 2009 in Region 5.
2
    http://intranet.epa.gov/ogd/policy/2.0-Closeout-Topics.htm.


11-P-0687                                                                                                6
            We identified several causes of delay in resolving the audits under appeal. The
            policies and procedures are inconsistent on when and how the audits under appeal
            must be resolved, with some policies including suggested milestones while others
            omit them. Other causes of delay were changes in program officers and ORC
            counsel, lost files, or ORC attorneys’ workloads, in which work with set deadlines
            took priority. Three examples of audits under appeal—Amherst, New York;
            Caribbean Environment & Development Institute (CEDI); and Brazil, Indiana—
            illustrate the problems with timely resolution. Appendix B provides other
            examples from our sample of audits under appeal that were not resolved in an
            efficient, effective, or timely manner.

                   Region 2

                   Amherst County, New York, filed its appeal in December 1992 but did not
                   provide the additional supporting documentation for the $6,061,407
                   questioned until January 2001. Little interaction between EPA and the
                   grantee took place during an 8-year span (1993–2000). The RA
                   subsequently issued two Dispute Decisions, in November 2001 and
                   January 2002. In February 2002, Amherst filed a Petition for Discretionary
                   Review with the AA, who issued three Dispute Decisions, in April 2007,
                   July 2009, and March 2010. A Request for Reconsideration of the AA’s
                   Decision was filed in May 2007, and two Requests for Deviation were
                   filed in May 2007 and December 2008. This appeal remains open.

                   The CEDI fiscal year 2000 audit under appeal, questioning $492,250, has
                   been in the resolution process since October 2008. The single audit of
                   CEDI determined that its accounting system was inadequate, with
                   outdated, incomplete, and inaccurate documents. CEDI last submitted
                   documentation in February 2009, but has subsequently been unable to
                   provide adequate documentation proving its claimed incurred costs are
                   reasonable, allowable, and allocable. As of October 2010, the Agency had
                   not established milestones for this appeal and was waiting for CEDI to
                   provide the requested additional documentation. Region 2 OGD and ORC
                   personnel explained that they have to go through due process and work
                   with the grantee. In addition, they explained that CEDI does not
                   understand the requirements for an adequate and compliant accounting
                   system, or what supporting documentation to maintain. This appeal
                   remains open.

                   Region 5

                   Brazil, Indiana, filed its initial appeal of the questioned $4,819,200 in
                   November 2000. From 2000 through 2008, little work was done on
                   resolving the appeal because the ORC attorney was waiting to learn about
                   the status of an Agreed Order between Brazil and the Indiana Department



11-P-0687                                                                                   7
                   of Environmental Management certifying the completion of the project.
                   Retirement of the original project officer, misplaced files, slowness of the
                   new project officer in responding to the ORC attorney’s questions, and the
                   ORC attorney’s workload caused further delays. The RA signed the
                   Dispute Decision in February 2008, but it was misplaced and not issued to
                   the grantee until May 2008. In June 2008, the grantee filed a Petition for
                   Discretionary Review with the AA. A decision was due to be issued by
                   December 2010. A decision was not issued, and this appeal remains open.

Conclusion
            Extensive delays in resolving audits under appeal in Regions 2 and 5 have tied up
            $17,301,131 in grant funds for up to 21 years, preventing unused funds and all
            monies owed to EPA from being deobligated or recovered and used on other
            grants or returned to the government. Further, for the older audits under appeal,
            historical knowledge and documentation have been misplaced or lost due to
            departure or retirement of personnel from the grantee, program office, OGD, or
            ORC. Compliance with the timelines and milestones set forth in the policies and
            procedures would result in a more efficient, timely, and less expensive resolution
            process. The resolution process is not timely; the timeframe is case dependent,
            with appeals lingering for years. This lack of timely resolution has caused serious
            delays in the recovery of significant amounts EPA believes is owed the federal
            government.

Recommendations
            We recommend that the Chief Financial Officer:

                   1. 	   In coordination with the Assistant Administrator for Administration
                          and Resources Management, ensure that the in-process revisions to
                          EPA Manual 2750 include:

                           a. 	   A communication strategy among audit followup, counsel,
                                  and grants management at the region and headquarters levels
                                  to assure entry in MATS of the current status of each audit
                                  under appeal

                           b. 	   Limits on the number of times a recipient may request
                                  reconsideration of any decision of the RA or AA

                           c. 	   Consistency among policies for resolving audits under appeal
                                  and inclusion of:

                                   i.	 Timelines and milestones for each step of the resolution
                                       process



11-P-0687                                                                                       8
                                   ii.	 Limits on the number of times that extensions may be
                                        granted and the number of times that the grantee may
                                        submit additional documentation

                                  iii.	 In-house monthly review by the responsible counsel
                                        and grants management organizations of the status of
                                        the resolution of audits under appeal

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   2. 	   Ensure that the in-process revisions to the Agency’s Assistance
                          Administration Manual include:

                           a.    An update to the OGD “Closeout Policies Topics” webpage,
                                 adding EPA Order 5700.6A2 and labeling the Closeout
                                 Policy for Grants and Cooperative Agreements as
                                 “rescinded,” “superseded,” or “expired”

                           b.    A reference to the procedures in EPA Manual 2750 that are
                                 outlined in recommendation 1

                           c.    Uniform procedures for resolving recipient disputes arising
                                 from the Agency’s assistance agreement audit determinations

Agency Comments and OIG Evaluation
            Although the Agency stated that it generally agreed with the draft report’s
            findings and overall recommendation for the EPA to provide greater structure and
            consistency to the audit resolution process, the Agency proposed several
            alternatives to the recommendations. Based on the Agency’s response, the OIG
            has revised and separated the recommended corrective actions between OARM
            and OCFO, and revised several aspects of the recommendations for greater
            clarity. We believe that our recommendations to incorporate the specified
            elements into OCFO’s EPA Manual 2750 and OARM’s Assistance
            Administration Manual will result in the more timely, efficient, and effective
            resolution of audits under appeal. Currently, the OIG considers the
            recommendations to be unresolved with resolution efforts in progress. The
            Agency’s response is included in appendix C.




11-P-0687                                                                                      9
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion    Claimed   Agreed-To
    No.      No.                         Subject                          Status1        Action Official             Date       Amount     Amount

     1        8    In coordination with the Assistant Administrator for     U         Chief Financial Officer
                   Administration and Resources Management,
                   ensure that the in-process revisions to EPA Manual
                   2750 include:
                      a. A communication strategy among audit
                         followup, counsel, and grants management at
                         the region and headquarters levels to assure
                         entry in MATS of the current status of each
                         audit under appeal
                      b. Limits on the number of times a recipient may
                         request reconsideration of any decision of the
                         RA or AA
                      c. Consistency among policies for resolving
                         audits under appeal and inclusion of:
                         i. Timelines and milestones for each step of
                            the resolution process
                         ii Limits on the number of times that
                            extensions may be granted and the
                            number of times that the grantee may
                            submit additional documentation
                         iii. In-house monthly review by the
                              responsible counsel and grants
                              management organizations of the status of
                              the resolution of audits under appeal
     2        9    Ensure that the in-process revisions to the              U       Assistant Administrator for
                   Agency’s Assistance Administration Manual                           Administration and
                   include:                                                          Resources Management

                      a. An update to the OGD “Closeout Policies
                         Topics” webpage, adding EPA Order
                         5700.6A2 and labeling the Closeout Policy
                         for Grants and Cooperative Agreements as
                         “rescinded,” “superseded,” or “expired”
                      b. A reference to the procedures in EPA Manual
                         2750 that are outlined in recommendation 1
                      c. Uniform procedures for resolving recipient
                         disputes arising from the Agency’s
                         assistance agreement audit determinations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-P-0687                                                                                                                                         10
                                                                                                                           Appendix A


                                    List of Sampled Audits Under Appeal
                                                                                Final         Date of     No. of days in      Initial
  Audit number     Region                      Audit title                  Determination     grantee     appeal status    disallowed
                                                                            Letter issued   appeal letter past due date       costs
 1990-001114-320      2      Nassau County, New York                         09/27/1990     10/24/1990        7,232        $
                                                                                                                                94,722
 1989-901299-320      2      Nassau County, New York                         03/30/1990     04/30/1990        7,388            4,344,808
 1990-001108-320      2      Nassau County, New York                         09/17/1990     10/05/1990        7,237              60,921
 2006-300069-320      2      Caribbean Environment & Development             09/26/2008     10/17/2008         658              492,250
                             Institute, FY 2000
 1992-201155-320      2      Amherst, New York                               07/17/1992     08/07/1992        6,572            6,061,407
                   Region 2 total                                                                                          $ 11,054,108
 1997-100003-350      5      Brazil, Indiana                                 11/03/2000     11/30/2000        3,542        $ 4,819,200
  8-200095-350        5      City of Bad Axe, Michigan—Unallowable           06/17/2008     07/02/2008         742              211,143
                             Costs Claimed Under EPA Grant
                             XP98578301
  8-200204-350        5      Village of Wellsville, Ohio—Ineligible Costs    02/12/2009     03/12/2009         522              647,377
                             Claimed Under EPA Grant XP97582801
  8-300041-350        5     City of Taylor, Michigan—FY 2005                 01/29/2008     02/18/2008         895              187,393
  9-300007-350        5     Michigan Department of Environmental             03/03/2009     03/27/2009         497              381,910
                            Quality —FY 2006–2007
                   Region 5 total                                                                                          $ 6,247,023
                   Total sample disallowed costs                                                                           $ 17,301,131




11-P-0687                                                                                                                           11
                                                                                                                                                                Appendix B


                                        Timeline of Resolution Process for Sampled Audits

  Resolution process actions                                          Region 2                                                                  Region 5
                                                                                                                                                             Michigan
                                                                                     Caribbean
                                                                                                                                                           Department of
                                                                                  Environment &       Amherst,       Taylor,    Wellsville,   Bad Axe,
                                            Nassau County, New York                                                                                        Environmental   Brazil, Indiana
                                                                                   Development        New York      Michigan     Ohio         Michigan
                                                                                                                                                              Quality
                                                                                 Institute FY 2000
                                                                                                                                                           FY 2006–2007
                                                                                   CE992069-
                                                   C360628-                                           C360618-
            Grant No.               C360891-07                 C360982-08        01/02/03/04/05/                                                                           C180457-04
                                                      01                                               02/03
                                                                                   06, 820770
                                                       1989-       1990-
        Audit Report No.            1990-001114                                   2006-300069        1992-201155   8-300041     8-200204      8-200095       9-300007      1997-100003
                                                      901299      001108
             Sample No.                 1                2           3                  4                5             6            7             8             9                10
Final Determination Letter
                                    09/27/1990    03/30/1990    09/17/1990         09/26/2008        07/17/1992    01/29/2008   2/12/2009     06/17/2008    03/03/2009      11/03/2000
issued
Grantee requests review of FDL
                                                                                                     08/07/1992
and extension to perfect appeal
Region 2 grants extension request                                                                    09/02/1992
Grantee requests additional
                                                                                                     09/30/1992
extension
Supplemental information provided                                                                    12/09/1992
Grantee files appeal                10/24/1990     04/301990    10/05/1990         10/17/2008        12/09/1992    02/18/2008   3/12/2009     07/02/2008    03/27/2009      11/30/2000
Grantee requests extension to                                                                                                                 08/19/2008
                                                                                   10/17/2008
perfect appeal                                                                                                                                11/04/2008
ORC counsel assigned                                                                                                                          10/01/2008                    04/11/2001
E-mails trying to locate complete                                                                                                                                            04/2001-
copy of file                                                                                                                                                                 05/2001
Time extension granted                                                             11/13/2008
Followup request for review by
                                                                                   12/09/2008
grantee
Scheduling Letter sent by EPA
                                                                                                                   05/30/2008
to grantee
Documentation submitted              No Dates                                      02/06/2009                      07/08/2008                 02/01/2009                    05/10/2002
Meeting between EPA and
                                                                02/27/1992                                                                                                  07/11/2002
grantee
Grantee withdraws appeal for
                                                                04/29/1992
disallowance of $27,355
EPA requests additional                  06/12/1990             06/29/1992
information
                                                  06/25/1990    07/20/1992
                                                  10/16/1991    08/10/1992
Supplemental information provided
                                                  07/20/1992    09/16/1992
                                                  08/10/1992    09/25/1992

        11-P-0687                                                                                                                                                           12
  Resolution process actions                                             Region 2                                                                  Region 5
                                                                                                                                                                Michigan
                                                                                        Caribbean
                                                                                                                                                              Department of
                                                                                     Environment &       Amherst,      Taylor,     Wellsville,   Bad Axe,
                                               Nassau County, New York                                                                                        Environmental   Brazil, Indiana
                                                                                      Development        New York     Michigan      Ohio         Michigan
                                                                                                                                                                 Quality
                                                                                    Institute FY 2000
                                                                                                                                                              FY 2006–2007
                                                                                      CE992069-
                                                      C360628-                                           C360618-
             Grant No.                 C360891-07                 C360982-08        01/02/03/04/05/                                                                           C180457-04
                                                         01                                               02/03
                                                                                      06, 820770
                                                        1989-         1990-
         Audit Report No.              1990-001114                                   2006-300069        1992-201155   8-300041     8-200204      8-200095       9-300007      1997-100003
                                                       901299        001108
             Sample No.                    1              2             3                  4                5             6            7             8             9                10
EPA requests additional
                                                                   11/17/1992                           12/14/1992
information
Supplemental information provided                                  12/09/1992
EPA internal e-mail                                                                                                                                            03/03/2010
ORC e-mails w/ draft Dispute                                                                                          07/20/2010
Decision preparing waiver of                                                                                          07/22/2010                               10/01/2010      01/18/2007
interest application                                                                                                  08/11/2010
Case reassigned to new ORC
                                                                                                                                                 09/22/2010
counsel
RA Dispute Decision signed                                                                                                                                                     02/11/2008
E-mails sent trying to locate signed
                                                                                                                                                                               03/01/2008
and released RA Dispute Decision
RA Dispute Decision issued             09/24/1993     9/29/1995                                                                    09/22/2010                                  05/22/2008
Petition for Discretionary Review
                                       10/22/1993                  10/22/1993                                                                                                  06/20/2008
filed with AA
General Request for                                                10/25/1993
                                       10/25/1993    10/30/1995
Reconsideration filed by grantee                                   10/26/1993
RA Dispute Decision issued                            8/30/2001    09/26/1994
Petition for Discretionary Review
                                                      8/30/2001    09/26/1994
filed with AA
Request for Reconsideration filed                                  10/26/1994
Meeting with grantee re another
                                       08/15/1996
submission
Time extension to submit
                                       02/01/1999
documentation
Final submission                       03/01/1999                  03/01/1999
Intermittent phone calls and
correspondence, no additional                                                                           1993–2000
information provided
RA Decision on Petition for
                                       03/13/2000
Reconsideration
RA Dispute Decision issued                                         09/07/2000
Region 2 announces intention to
consolidate reviews of grants,                                                                          11/07/2000
proposes conference
Grantee counsel, by phone, rejects
                                                                                                        11/21/2000
proposed schedule
Supplemental information provided                                                                       01/18/2001

        11-P-0687                                                                                                                                                              13
   Resolution process actions                                         Region 2                                                               Region 5
                                                                                                                                                          Michigan
                                                                                     Caribbean
                                                                                                                                                        Department of
                                                                                  Environment &       Amherst,      Taylor,   Wellsville,   Bad Axe,
                                            Nassau County, New York                                                                                     Environmental   Brazil, Indiana
                                                                                   Development        New York     Michigan    Ohio         Michigan
                                                                                                                                                           Quality
                                                                                 Institute FY 2000
                                                                                                                                                        FY 2006–2007
                                                                                   CE992069-
                                                   C360628-                                           C360618-
             Grant No.              C360891-07                 C360982-08        01/02/03/04/05/                                                                        C180457-04
                                                      01                                               02/03
                                                                                   06, 820770
                                                     1989-         1990-
         Audit Report No.           1990-001114                                   2006-300069        1992-201155   8-300041   8-200204      8-200095      9-300007      1997-100003
                                                    901299        001108
            Sample No.                  1              2             3                  4                 5           6           7            8             9                 10
Conference held                                                                                      04/24/2001
Supplemental information provided                                                                    06/15/2001
Grantee submits letter to OGD
                                                                                                     07/19/2001
Director requesting deviation
                                                                                                     11/19/2001
RA Dispute Decision issued
                                                                                                     01/03/2002
Petition for Discretionary Review
                                                                                                     02/01/2002
for Grant No. C360618-02 filed
                                                                                                     02/04/2002
Followup letter to Petition
                                                                                                     11/03/2003
Internal EPA Grants letter                                                                           08/29/2006
AA Dispute Decision issued                                                                           04/11/2007
Request for Reconsideration of AA
                                                                                                     05/17/2007
decision
Request for deviation from
provisions of 40 CFR 30 and                                                                          05/24/2007
40 CFR 35
Appeal withdrawn                    07/20/2007
Followup letter to Petition                                                                          12/31/2008
Request for Deviation letter                                                                         12/31/2008
Letter recommending deviation
denial—Region 2 RA to OGD                                                                            05/19/2009
Director
                                                                                                     07/23/2009
AA Dispute Decision issued
                                                                                                     03/01/2010
Letter recommending deviation
denial—Region 2 RA to OGD                                                                            08/10/2010
Director
                                     Closed –                                                                                  Closed –                   Closed –
Status                                               Open         Open                Open              Open        Open                     Open                             Open
                                    01/05/2011                                                                                09/22/2010                 10/01/2010




         11-P-0687                                                                                                                                                       14
                                                                                          Appendix C

                  Agency Response and OIG Evaluation


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460

August 5, 2011

MEMORANDUM


SUBJECT:      Response to Draft Office of Inspector General Audit Report,
              Project No. OA-FY10-0205: EPA Should Improve Timeliness for Resolving Audits Under
              Appeal

FROM:         Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management

              Barbara J. Bennett
              Chief Financial Officer

TO:           Melissa M. Heist, Assistant Inspector General for Audits
              Office of Inspector General


Thank you for the opportunity to comment on the subject OIG draft Audit Report (Report), dated July 6,
2011. We appreciate the courtesy and open communications the OIG team afforded during the course of
the audit.

The expressed purpose of the audit was to evaluate the timeliness and efficiency of the EPA’s process
for resolving a recipient’s dispute arising from the EPA’s assistance agreement audit determination
(defined in the Report as the “appeals resolution process”). We generally agree with the Report’s
findings and overall recommendation for the EPA to provide greater structure and consistency to the
audit resolution process.

The EPA remains committed to ensuring that recipient audit appeals are resolved in an efficient and
timely manner. Since the OIG completed its fieldwork, the agency has continued to take affirmative
steps to resolve the audit appeals that were the subject of the OIG’s review. For example, many of the
appeals in Region 2 were either withdrawn by the recipient or were decided with a partial remand back
to Region 2 for reconsideration. With respect to the Nassau County, New York Grant Number C360982-
06, referenced on page 5 of the Report, the Regional Administrator recently issued a decision reducing
the federal share of disallowed costs to $0. On June 9, 2011, Region 2 also closed the appeal concerning
the Nassau County, New York Grant Number C360982-08.



11-P-0687                                                                                          15
The Office of Grants and Debarment further issued a deviation that will facilitate the resolution of the
remaining Nassau County, New York audit appeals, and is in the final stages of deciding a deviation
request that will fully resolve the audit appeal concerning the Amherst, New York Grant Number
C360618-02/03. Region 5 has likewise continued to make progress in resolving its pending recipient
audit appeals. In addition, on March 28, 2011, the Region 5 Regional Administrator issued uniform
regional procedures for resolving assistance agreements audit disputes and appeals in that Region.

Based on our review of the Report, we have a number of comments on the Report’s findings and
recommendations.

Comments on the Report’s Findings

We note that the Report cites the EPA’s Closeout Policy for Grants and Cooperative Agreements, issued
on August 27, 1992, as the governing policy for resolving assistance agreement audits under appeal.
That policy, however, is no longer in effect. The EPA Order 5700.6 A2, entitled “Policy on Compliance,
Review and Monitoring,” expressly replaced, rescinded and superseded the 1992 Closeout Policy. The
now effective EPA Order 5700.6 A2, was originally issued on September 24, 2007, and became
effective for closeout procedures on January 1, 2008. The Order essentially establishes the agency’s
standards for the oversight, monitoring and closeout of EPA assistance agreements. Unlike the former
1992 Closeout Policy, it does not provide specific procedures for resolving audits or recipient disputes
arising from audit final determinations. Accordingly, as of January 1, 2008, the 1992 Closeout Policy no
longer governs the audit appeals process. We therefore request that in the Final Report, the OIG delete
the references for continuing compliance with that Closeout Policy.

OIG Response: The OIG revised the report to clarify that the closeout policy was applicable to the
appeals we reviewed that were under appeal before and up to January 1, 2008, at which time EPA Order
5700.6A2 superseded the closeout policy and took effect. Until this response, no mention was made of
EPA Order 5700.6A2, and according to the OGD intranet webpage “Closeout Policies Topics”
(http://intranet.epa.gov/OGD/policy/2.0-Closeout-Topics.htm), the Closeout Policy for Grants and
Cooperative Agreements is the governing policy. We recommend that OGD update its webpage
“Closeout Policies Topics,” adding EPA Order 5700.6A2 and labeling the Closeout Policy for Grants
and Cooperative Agreements as “rescinded,” “superseded,” or “expired.” Further, we have also revised
recommendation 1.b. to remove reference to the closeout policy.

We also note that in the second full paragraph on page 7, the Report indicates that Region 2 considered
the Caribbean Environmental & Development Institute (CEDI) a “high-risk” grantee. The EPA,
however, did not designate CEDI as “high-risk”. If it had, then the Agency would have placed CEDI on
the reimbursement method of payment with active payment review.

OIG Response: During our meeting with Region 2 OGD and ORC personnel, the Grants and Contracts
Management Branch Chief used the phrase “high-risk grantees” when discussing some of the issues the
Agency faces with grantees unfamiliar with government accounting requirements; i.e., issues the EPA is
having with CEDI. However, since Region 2 explained that CEDI is not a high-risk grantee, we
removed the statement in question from the report.




11-P-0687                                                                                             16
Comments on the Report’s Recommendations

Our consolidated comments on the specific Report recommendations and corrective actions initiated or
planned are set forth below.

   1.	 We recommend the Assistant Administrator for Administration and Resources Management and
       the Chief Financial Officer, jointly assure the in-process revisions to the Agency's Assistance
       Administration Manual and EPA Manual 2750 include:

       a.	 a communication strategy that ensures EPA records current data on audits under appeal in
           MATS.

   Response: We concur with the part of the recommendation calling for revisions to EPA Manual
   2750 and a communication strategy to ensure updates in the Management Audit Tracking System
   (MATS). Providing agencywide audit appeals resolution procedures as part of Manual 2750 will
   help increase consistency in the resolution process. It will also allow for a more comprehensive
   “cradle to grave” EPA policy that will provide information on audit follow-up, tracking, resolution
   and appeal procedures in one central document. The Office of the Chief Financial Officer is
   currently leading an agencywide workgroup to revise Manual 2750. The OIG is a key participant in
   the workgroup. The workgroup’s efforts had been on hold for several weeks pending the OIG’s
   completion of its own revisions to the OIG’s internal audit review and resolution procedures. After
   discussions between the OIG and OCFO managers, the workgroup resumed the Manual 2750
   revision process, with the goal of completing a first draft of the revisions to the Manual by the end of
   the third quarter of fiscal year (FY) 2012. The Office of Administration and Resources Management
   will take the lead in developing the assistance agreement audit appeals resolution procedures for
   final incorporation into the revised Manual 2750. OARM will work together with the Office of
   General Counsel, OCFO and the Grants Management and Program Offices to develop the
   procedures. OARM intends to complete the draft of the appeals resolution procedures by the end of
   the second quarter of FY 2012.

OIG Response: The OIG agrees with the corrective actions covered in the preceding paragraph.
Therefore, we revised recommendation 1 to state that OCFO coordinate with OARM to revise EPA
Manual 2750 rather than recommending that OCFO and OARM jointly revise 2750 and the Assistance
Administration Manual. The 2750 Workgroup decided that each type of audit will address the Agency’s
dispute resolution process. Currently, the draft flowcharts for the assistance agreements and single audits
both reference an appeals flowchart for the appeals process that has not yet been drafted. The
management action plan in response to the final report should more specifically cover the intended
approach for appeals.

   Based on the planned incorporation of the appeals audit resolution procedures in Manual 2750, the
   EPA does not believe that it is necessary to require inclusion of the same procedures in the agency’s
   Assistance Administration Manual at this time. While OGD has initiated a process to revise the
   Assistance Administration Manual, those revisions will address the broader grants administration
   process and will entail significantly more coordination and time than would be required for
   developing the appeals resolution procedures. We therefore request that the OIG delete the
   recommendation to include the appeals procedures in the EPA’s Assistance Administration Manual,
   since that recommendation would delay implementation of the corrective actions and closeout of this
   OIG audit. OARM does intend to include the appropriate reference to the appeals procedures in the

11-P-0687                                                                                             17
   revised Assistance Administration Manual. However, as previously mentioned, the Assistance
   Administration Manual revisions represent a much larger and protracted process that is beyond the
   scope of the Report.

OIG Response: The OIG agrees that the revised procedures should be in EPA Manual 2750. In the new
recommendation 2.b., the OIG recommends that OARM ensure that the Assistance Administration
Manual references the changes in 2750.

   We also request that the OIG revise the recommendation to direct the applicable corrective actions
   separately to OCFO and OARM. We recognize that the recommendation entails coordination
   between both offices. However, based on the planned two-tiered corrective action strategy,
   separating the recommendations will better enable each office to track and be accountable for
   implementing the corrective action within its respective purview. Specifically, we request that the
   OIG direct OARM to develop uniform procedures for resolving recipient disputes arising from the
   agency’s assistance agreement audit determinations. We also request that the OIG direct OCFO to
   incorporate the procedures and requirements for regular MATS update in the revised EPA Manual
   2750.

OIG Response: The OIG agrees to separately address corrective actions to OCFO and OARM. Also, in
the new recommendation 2.c., the OIG recommends that OARM develop uniform procedures for
disputes as suggested in the Agency response.

EPA concurred with recommendation 1.a., calling for a communication strategy to ensure updates in
MATS. However, the Agency’s proposed corrective actions do not fully address the intent of
recommendation 1.a., which was to improve the interoffice communications at both regional and
headquarters levels among the AFCs, ORC, and OGD on the status of each audit under appeal.
Inadequate communications among EPA personnel responsible for resolving audits under appeal have
resulted in inaccurate information in MATS. At the time of this audit, several disputed audits that were
withdrawn by the grantee 3 years previously were still listed in MATS, resulting in an overstatement of
audits under appeal in MATS. In another instance, an appeal was lost in headquarters for almost a year
after the grantee appealed the RA’s decision to the AA. The OIG revised recommendation 1.a. to more
clearly cover the expectation that the Agency develop a communication strategy among the headquarters
and regional AFCs, ORC, and OGD to ensure that the most current data on disputed grant audits are
recorded in MATS.

       b.	 update of the EPA Closeout Policy for Grants and Cooperative Agreements and revision of
           the statement, “The recipient may request reconsideration of any decision of the RA or AA,”
           to establish a finite number of reconsideration requests.

   Response: The EPA does not concur with this recommendation. As indicated above, the Closeout
   Policy is no longer in effect. The audit appeals resolution policy that OARM develops and OCFO
   incorporates in Manual 2750 will limit the number of reconsideration requests permitted.




11-P-0687                                                                                          18
OIG Response: The OIG revised this recommendation in accordance with the Agency’s request and
removed references for continuing compliance with EPA’s Closeout Policy for Grants and Cooperative
Agreements. The OIG revised the recommendation to the OCFO to incorporate in EPA Manual 2750
milestones that limit the number of times a grantee may request reconsideration of RA and AA
decisions.

       c.	 consistency among policies for resolving audits under appeal and inclusion of:

            i.	 timelines and milestones for each step of the resolution process;

            ii.	 limits on the number of time extensions may be granted and the number of times that the
                 grantee may submit additional documentation; and

            iii. monthly review of the status of the resolution of audits under appeal.

   Response: The EPA agrees in principle that there is a need for greater consistency and structure in
   the audit appeals resolution process, but has some concerns about the stringency of the deadlines and
   restrictions contemplated under this recommendation. The fact is that many of the audit appeals take
   time to resolve because they raise complex legal, technical and factual issues that require the
   submission and review of extensive documentation and data. They also necessitate broad
   coordination between various offices, including legal counsel, Programs, and Grants Management
   Offices. The resolution timeframe for each appeal may vary depending on the nature of the issue and
   the workload of the EPA personnel involved. In addition, the resolution process may include the
   consideration of a formal deviation from governing regulations or policies. That would add another
   layer of review and time to the resolution process. As a result, the appeals process does not lend
   itself to rigid procedural deadlines or milestones.

   Similarly, while it is necessary to prevent recipients from unnecessarily prolonging the appeals
   resolution process by requesting unwarranted time extensions or submitting unnecessary additional
   documentation, the adopted restrictions would need to allow some discretion to account for the
   unique facts and circumstances of individual appeals.

   The EPA therefore requests that recommendation c.i and ii be revised to require the adoption of
   flexible guidelines for establishing timelines for the resolution of individual audit appeals, including
   the ability to exercise discretion as necessary to take into account the unique facts and circumstances
   of the appeal.

OIG Response: The OIG did not change the recommendations as requested for two reasons. First, the
degree of flexibility allowed in the dispute resolution process is at the Agency’s discretion. Second, by
setting expectations for timelines and extensions, the Agency sets parameters for exceptions. For
example, limiting the number of documentation submissions and requests for reconsideration of RA and
AA decisions would reduce the potential for unnecessary delay in the resolution process. At the time of
our evaluation, 17 audits had been in appeal status for more than 10 years, and currently, there are 10
that have been in appeal status for more than 10 years.




11-P-0687                                                                                             19
   Finally, the EPA requests that recommendation c.iii be revised to require a minimum of quarterly
   rather than monthly updates to MATS. A mandatory minimum of quarterly updates is consistent
   with MATS updating for OCFO’s Quarterly Audit Management Progress Reports, and will more
   appropriately take into account the general phases involved in the appeals resolution process.

OIG Response: The OIG revised this recommendation to clarify that this recommendation covers an
in-house monthly status review of disputes by counsel and grants management. We intended this review
to facilitate timely resolution and expect that the review is in addition to the quarterly MATS update.
Some topics for this review include (1) identification of audits in appeal status, (2) stage of the
resolution process, (3) issues delaying the resolution, (4) time extensions, and (5) counsel and grants
management workloads.

Thank you again for the opportunity to comment on the Report. If you have any questions concerning
this matter, please contact Denise Sirmons at 202-564-6771. You may also contact Alexandria Mincey,
the OGD Audit Follow-up Coordinator, at 202-564-5371, or Bernadette Dunn, the OCFO Audit Follow-
up Coordinator, at 202-564-4963.

cc: Judith Enck
    Susan Hedman
    Scott Fulton
    Eric Schaaf
    Robert Kaplan
    Wendel Askew
    James Drummond
    Janet Kasper
    Kathy O’Brien
    Deborah Rutherford
    Bernadette Dunn
    Howard Corcoran
    Denise Sirmons
    John Sveck
    Eric Levy
    Alexandria Mincey
    Joseph Lucia




11-P-0687                                                                                         20
                                                                                Appendix D

                                      Distribution
Office of the Administrator
Agency Followup Official (the CFO)
Assistant Administrator, Office of Administration and Resources Management
Regional Administrator, Region 2
Regional Administrator, Region 5
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Region 2
Audit Followup Coordinator, Region 5




11-P-0687                                                                              21
